MAINE OFFICE OF THE ATTORNEY GENERAL
6 STATE HOUSE STATION
AUGUSTA, MAINE 04333
(207) 626-8800

August 25, 2020

Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, D.C. 20543
RE: Prescott McCurdy v. Maine, 20-137
Dear Mr. Harris:
Please enter my appearance in the above matter on behalf of the Respondent,
State of Maine.
We do not intend to file a response to the petition unless the Court requests one.
Thank you for your assistance.

Sincerely,
/s/ Donald W. Macomber
DONALD W. MACOMBER
Assistant Attorney General
Criminal Division

cc:

Prescott McCurdy

